<html>
<title> - A PATHWAY TO FREEDOM: RESCUE AND REFUGE FOR SEX TRAFFICKING VICTIMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                A PATHWAY TO FREEDOM: RESCUE AND REFUGE 
                      FOR SEX TRAFFICKING VICTIMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2015

                               __________

                           Serial No. 114-67

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE       
 94-608 PDF                   WASHINGTON : 2015                         
                                                              
                                 
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota<greek-l>Until 
    5/18/15 deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Sean Reyes, attorney general, State of Utah........     5
Mr. Tim Ballard, founder and chief executive officer, Operation 
  Underground Railroad...........................................    16
Ms. Karla Jacinto Romero, survivor of human trafficking and 
  advocate, Commission United vs. Trafficking....................    23
The Honorable Rosi Orozco, president, Commission United vs. 
  Trafficking (former Mexican Congresswoman).....................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Sean Reyes: Prepared statement.....................    11
Mr. Tim Ballard: Prepared statement..............................    20
Ms. Karla Jacinto Romero: Prepared statement.....................    24
The Honorable Rosi Orozco: Prepared statement....................    29

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47


  A PATHWAY TO FREEDOM: RESCUE AND REFUGE FOR SEX TRAFFICKING VICTIMS

                              ----------                              


                         THURSDAY, MAY 14, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and good 
afternoon. It is an honor to be here with you today focusing on 
the fight against human trafficking, an insidious human rights 
abuse that thrives in an environment of secrecy, of silence, of 
acquiescence, complacency, and of a mindset that says that it 
is somehow somebody else's business. The truth of the matter is 
that combating modern day slavery is everybody's business. We 
are all in this together. Cooperation and coordination are key 
to mitigating and someday ending this pervasive cruelty.
    Significant progress has been made since I authored 
landmark legislation known as the Trafficking Victims 
Protection Act of 2000 to combat sex and labor trafficking in 
the United States and globally. The Trafficking Victims 
Protection Act of 2000 and its 2003 and 2005 reauthorizations, 
which I also sponsored, launched a bold new strategy that 
included sheltering, political asylum, and other protections 
for the victims, long jail sentences and asset confiscation for 
the traffickers, and tough sanctions for governments that 
failed to meet minimum standards prescribed in the legislation. 
And for the first time ever, the law recognized, and this was a 
sea change effort, the exploited women, children, and men, as 
victims, not as perpetrators of the crime.
    Since 2004, the Trafficking Victims Protection Act has 
resulted in anti-human trafficking task forces in 42 cities 
across the U.S. These task forces identify potential victims of 
human trafficking, coordinate local and Federal law enforcement 
to rescue victims, assist with referrals for victim care, and 
train law enforcement.
    Today's hearing will concentrate on rescue and refuge. In 
January 2000, I received actionable information that eight 
Ukrainian women were being exploited by sex traffickers in two 
bars in Montenegro. The women had been lured there with 
promises of legitimate work, then forced into prostitution. One 
desperate victim, however, called her mother for help using the 
phone of one of the men that was exploiting her. When informed, 
I immediately called the Prime Minister of Montenegro, Filip 
Vujanovic, who personally ordered an immediate raid on the bar. 
As a result, I was told, don't let the local police go. They 
are on the take. They exploit the women. They are getting money 
from this nefarious establishment. So he sent his own police to 
rescue, and as a result, seven of the eight women were rescued 
and returned to their families in Ukraine. Tragically, the 
eighth woman was trafficked to Albania prior to the raid.
    We now know that organized crime, street gangs, pimps 
around the world, have expanded into sex trafficking at an 
alarming rate. It is an extremely lucrative undertaking. A 
trafficker can make hundreds of thousands of dollars a year off 
just one victim. Unlike drugs or weapons, a human being can be 
held captive and sold into sexual slavery over and over and 
over again, turned into a commodity. Pornography and the 
devaluation of women are helping to drive this demand. And 
while our Departments of Justice and Homeland Security work 
with law enforcement abroad in sting operations to catch 
American pedophile sex tourists and to rescue victims, where 
there is a nexus with the United States, they cannot conduct 
rescue operations or run investigations that fall outside of 
their jurisdiction.
    Nevertheless there are victims, someone's young son or 
daughter, today being cruelly exploited. Into this gap step 
nongovernmental rescue operations. Some of the best are staffed 
by former Navy SEALS, ex-CIA agents, and even the occasional 
sitting member of a State Government. That is what we will hear 
about today, from witnesses that include a former CIA agent now 
involved in rescuing the most vulnerable, as well as from a 
sitting attorney general. We will hear from a former Member of 
the Mexican Congress who has fought trafficking her entire 
career, and we will hear from a victim of trafficking who will 
also tell us about the importance of refuge and rehabilitation 
following the rescue.
    Operation Underground Railroad has made it their business 
literally and figuratively to identify children being sex 
trafficked into other countries and then to partner with the 
relevant foreign governments and their entities for the rescue 
and rehab of those children.
    Operation Underground Railroad members frequently pose as 
American sex tourists who enlist traffickers to host sex 
parties for them. It is a common occurrence in many Latin 
American nations and it provides the perfect cover for 
Operation Underground Railroad to lure the traffickers with the 
children for sale to a preset location and then have the local 
authorities ready to bust the traffickers as well as to rescue 
the kids. Operation Underground Railroad also trains the local 
governments on how to conduct sting operations on traffickers 
and on the rehabilitative needs of those trafficking victims.
    I want to thank our witnesses in advance for their 
extraordinary and courageous activity on behalf of these 
vulnerable people, especially kids, especially women who are at 
risk. You have made an enormous difference. And the country, 
the United States, the Congress, and the world, really needs to 
hear what you are doing so that these great actions can be 
replicated so that more people will be rescued.
    I would like to now yield to my good friend and colleague, 
the gentlelady from California, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair, as always for your 
leadership on this issue and so many other issues. I also want 
to thank our distinguished guests who took the time to be here 
with us today. During this hearing I look forward to discussing 
strategies to address sex trafficking as an issue that we are 
dealing with here in the United States as well as abroad. And 
hopefully we can embrace an inclusive approach that 
acknowledges the international nature of this. It is also 
important to note, unfortunately, that U.S. nationals are also 
perpetrators of sex crimes abroad, and I will be particularly 
interested in hearing about that since I know that a couple of 
you are involved in that.
    We know that the issue affects millions of adults and 
children, men, and women worldwide who are victimized across a 
wide range of commercial sex and forced labor schemes. In the 
United States and in my congressional district and in some 
cities, the population that is particularly vulnerable, 
especially the child population, to sex trafficking, are kids 
in the child welfare system; that is an issue that we are 
concerned about in my city but we have also worked on in a 
bipartisan basis.
    I had an experience a couple of years ago of having a young 
foster child, former foster child, who told me that her 
experience being in the child welfare system actually she felt 
prepared her to be trafficked because she was so used to being 
moved around place to place, and people who were involved with 
her were all paid to be with her. And so we know that this 
story here is far too common. And in a bipartisan effort to 
drastically decrease the number of foster youth who experience 
this horrible exploitation, I have reintroduced legislation 
called Strengthening the Child Welfare Response to Trafficking 
Act this year. The legislation passed the House unanimously, 
and over in the Senate, the language from that bill was put in 
a bill. And Mr. Chair, you might know that that is coming back 
our way next week, and we hope to have it on the President's 
desk very soon.
    So I look forward to your testimony today and how we can 
learn from what you have done around the world and how we can 
apply your experiences and lessons here in the United States. 
Thank you.
    Mr. Smith. Thank you, Ms. Bass.
    I would like to now recognize Mr. Emmer.
    Mr. Emmer. Thank you, Mr. Chair, and also Ranking Member 
Bass, for holding this important hearing. I can think of no 
better place than this subcommittee when it comes to 
highlighting the atrocious crime of human trafficking. You 
should both be commended for your leadership on this issue.
    When Boko Haram terrorists kidnapped hundreds of teenage 
girls with the intent of selling them off into slavery, the 
offense sparked international outrage and inspired action here 
in the halls of Congress. I want to thank the ranking member 
and Robin Kelly from this committee, as well as Congresswomen 
Jackson Lee and Wilson for their persistence and leadership on 
that front.
    Unfortunately not all trafficking cases make the 
international news. Every day children across the world are 
taken from their family, from their homes, and sold and 
enslaved, forced into labor and prostitution against their 
will. As a father of seven children myself, I cannot begin to 
fathom the agony their families must be experiencing. The 
United States, to our collective shame, is not immune to this 
tragedy. In America alone, hundreds of thousands are trafficked 
in by transnational drug cartels and criminal organizations. 
The Justice Department estimates that there are more than 
200,000 children across the U.S. that are ``at risk of 
trafficking.'' Human trafficking is nearly a $30 billion per 
year criminal enterprise with thousands of innocent children 
trafficked annually.
    I am pleased that Congress, in coordination with the Obama 
administration, has made great strides in combating 
trafficking, but there is still much work to be done to help 
victims improve prosecutions, and prevent men, women, and 
children from being targeted by predators. This body must do 
everything within its power and authority to stay one step 
ahead of those involved in these crimes against humanity. As a 
Congress we must prioritize funding to support NGOs such as the 
ones before us today, nonprofits, and State and Federal 
prosecutors, to see the best practices and methods of 
prevention, protection, and prosecution.
    One way we can combat trafficking is through safe harbor 
laws that have been instituted across the country, including in 
my home State of Minnesota. By protecting victims and assisting 
prosecutors, by pursuing safe harbor laws at the national 
level, we can better respond to this national crisis. The words 
spoken here today cannot be merely symbolic gestures. They must 
be followed by action and constant vigilance. Our children 
deserve nothing less.
    I want to thank our witnesses and the concerned citizens in 
attendance for your continued efforts in this fight, and with 
that I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Emmer.
    I would like to recognize my good friend and colleague, Mr. 
Clawson, from Florida.
    Mr. Clawson. Thank you, Mr. Chairman and Ranking Member, 
for doing this hearing about such a tragic global situation. It 
is hard to even fathom. And I would like to reiterate the words 
of my friend, Mr. Emmer, I think it is time to bring home the 
African kidnapped girls and, you know, bring home the girls. 
And I know that is not the topic today, but bring home the 
girls. And we need to do everything we can on that.
    To the guests, you all are doing more than just talking, 
and I respect action; so thank you for what you all do and the 
example that you set. And we ought to learn from that, and 
others ought to learn from that. And to Senorita Karlita, Karla 
[speaking foreign language].
    Thank you.
    Mr. Smith. Thank you very much, Mr. Clawson.
    I would like to now introduce our very distinguished 
witnesses and invite them to testify. Beginning first, it is my 
very high honor and privilege to recognize and welcome the 
Honorable Sean Reyes, who today serves as the 21st attorney 
general of Utah, first appointed and then elected, but first 
appointed in 2013. Attorney General Reyes has received 
attention locally and nationally for transforming the Utah 
attorney general's office and for his very direct involvement 
in bringing traffickers to justice both in Utah and in South 
America. Last year, for example he traveled with Operation 
Underground Railroad to participate in a covert sting where he 
posed as a bodyguard and translator to help liberate over 100 
children from a sex trafficking ring. A public official who 
doesn't just implement or enforce the law, but actually gets 
right there face-to-face with the horrific tragedy, preventable 
tragedy, of sex trafficking and helps to rescue those kids.
    We will then hear from Mr. Timothy Ballard who is the 
founder and CEO of Operation Underground Railroad and serves as 
its jump team commander for rescue operations. Mr. Ballard has 
worked at the Central Intelligence Agency and as a special 
agent for the Department of Homeland Security where he was 
assigned to the Internet Crimes Against Children Task Force and 
deployed as an undercover operative for the U.S. Child Sex 
Tourism Jump Team. He has worked every type of case imaginable 
in the United States and in multiple foreign countries in the 
fight to dismantle, disrupt, and bring to justice these 
terrible child trafficking rings, so thank you.
    Then we will hear from Ms. Karla Jacinto Romero who is now 
22 years old and a survivor of human trafficking which she 
suffered from the age of 12 to the age of 16. Today Karla is a 
happy and successful mother of two beautiful girls, a wife, a 
student, and an international activist. She has shared her 
strong message against human trafficking with the Mexican House 
of Representatives, in the United Kingdom, in Rome, as well as 
in the Vatican. She helps rebuild the dreams of other human 
trafficking survivors by both her words and by her example, 
encouraging them to overcome and to love life and to trust 
their neighbors again.
    We will then hear from Ms. Rosi Orozco who is currently the 
president of the Commission United vs. Trafficking. Since 1990, 
she has worked to promote and defend human rights through 
several associations, particularly in the prevention and 
treatment of combating human trafficking, crime prevention, 
social development, and strengthening families. She has also 
acted as Federal Deputy and the President of the Special 
Commission for the Fight Against Human Trafficking in the 
Mexican House of Representatives and was the main proponent of 
the Law Initiative to Prevent, Punish, and Eradicate the 
Offenses on Trafficking in Persons and to Protect and Assist 
the Victims of these crimes, which became law in Mexico. Fellow 
lawmaker, welcome, and thank you for your leadership. Mr. 
Attorney General, the floor is yours.

STATEMENT OF THE HONORABLE SEAN REYES, ATTORNEY GENERAL, STATE 
                            OF UTAH

    Mr. Reyes. Thank you, Mr. Chair, members of the committee. 
It is an absolute honor to be with you today along with these 
distinguished witnesses to address what I consider to be one of 
the greatest evils plaguing our world today, specifically child 
sexual slavery, or the trafficking of children for sex 
exploitation. As the attorney general of the great State of 
Utah, I am the highest ranking prosecutor in our State and in 
this capacity familiar with all manner of crimes. I oversee 
approximately 80 certified peace officers who serve as 
investigators for the State, either full-time or from partner 
agencies that are affiliates of our Internet Crimes Against 
Children Task Force or Secure Strike Force, both multi-agency 
teams under the AG's office, focused on combating crimes such 
as child sexual abuse, exploitation, and child pornography, and 
disrupting the trafficking of women and children for various 
reasons, including sex and sex exploitation.
    While I believe trafficking of persons is one of the most 
insidious of the many crimes we confront, sadly it is also one 
of the least understood and least recognized by the public. And 
as a father of six children, I want to change that. I know they 
are looping behind me, or to the side, some of the footage of 
the mission from October of last year when we went down to 
Cartagena and two other cities in Colombia; and if I have time, 
I will address and give you a little bit of context for that as 
Mr. Ballard may also.
    Today in addition to offering my support for the 
International Megan's Law, H.R. 515, sponsored by the chair and 
passed by the House, I would also like to paint with a slightly 
a broader brush in giving texture to more comprehensive issues 
pertaining to human trafficking. And to that end, let me begin 
with a few generalized statistics regarding the trafficking of 
persons. There are currently an estimated 20 million to 30 
million modern-day slaves worldwide, people taken or lured into 
servitude and held against their will. And to put that number 
in perspective, that is twice as many or more modern-day slaves 
than there were during the entire transatlantic slave trade 
from the 16th to 19th centuries, 300 years, which was by most 
scholarly accounts, 10 million to 13 million people. And I want 
to be very clear that I am not saying that in any way to 
diminish the blight that that is on our world history, but only 
to underscore the severity and pervasiveness of what is going 
on today.
    Human trafficking has become the second most lucrative 
criminal enterprise internationally, trailing only drug 
trafficking and ahead now of even arms dealing and 
counterfeiting. It generates an estimated $150 billion or more 
annually but is very, very difficult to quantify because of how 
little is reported. The United Nations Office on Drugs and 
Crime estimates that 18 percent of the victims are forced into 
hard labor. Others are conscripted into military servitude, 
recruited for terrorism, forced into acting as suicide bombers, 
part of illegal adoptions, or even killed to harvest their 
organs on the black market. But the overwhelming majority, 
approximately 80 percent, are forced into sex slavery or sex 
exploitation. Sex exploitation includes forcing victims into 
prostitution and compelling victims to commit sex acts for the 
purpose of creating pornography.
    Let me focus a few more statistics particularly on sexual 
slavery. Trafficking women and children for sexual exploitation 
is the fastest growing criminal enterprise in the world at this 
time, this despite the fact that international law and the laws 
of 134 countries criminalize sex trafficking. About 2 million 
children are exploited every year in the global commercial sex 
trade. That number is about 5 million if you are just talking 
about trafficking in general. Women and girls make up 98 
percent of victims of trafficking for sexual exploitation. 
Anecdotal estimates from survivors are that only 1 in 10 
victims caught up in the life ever make it out alive, so that 
is 90 percent of the victims that will never make it out of the 
life alive.
    According to the U.S. State Department, 600,000 to 800,000 
people are trafficked across international borders every year, 
of which 80 percent are female and half are children. Briefly a 
quote from a young international sex trafficking victim:

        ``They forced me to sleep with as many as 50 customers 
        a day. I had to give the pimp all of my money. If I did 
        not earn a set amount, they punished me by removing my 
        clothes and beating me with a stick until I fainted, 
        electrocuting me, or cutting me.''

    When I first heard experiences such as these, I thought 
that they were not humanly possible to endure. I am dreadfully 
sorry to report that I was wrong, having heard now from so many 
more victims that have corroborated the fact that these 
children can be raped dozens, if not scores of times, each and 
every day.
    In February 2014, in my own home State of Utah, based on a 
tip from our immigrant community and a brave man who wore a 
wire to help us gather evidence, my office arrested Victor 
Emmanuel Rax, a central American individual, based on evidence 
of trafficking children, raping numerous young boys, and 
forcing them to sell his drugs, not only into high schools and 
junior high schools in our area, but even elementary schools in 
the Salt Lake County area. Upon arrest we consulted with our 
Federal law enforcement partners who indicated that they knew 
Rax, had tried to make a case against him for many years but 
that witnesses became too intimidated or disappeared in the 
past. They also indicated Rax had been deported seven times to 
central America where he had spent time in prison for crimes 
related to drugs and child sexual abuse and was a member of a 
notorious international gang. Rax had just come back into the 
U.S. after each deportation. We were not willing to let him 
escape again. When we, with the cooperation with our Federal 
counterparts, made the decision to prosecute Mr. Rax in the 
U.S. justice system and keep him here rather than deport, we 
had over 60 victims and witnesses come forward to testify by 
the time we filed information and charging documents. With such 
overwhelming evidence, Rax took his own life during the 
pendency of the trial.
    With an International Megan's Law and attendant MOUs and 
bilateral agreements, Guatemala or El Salvador could have 
notified the U.S. to warn us of the monster within our midst. 
Also these countries have the expertise, software, forensic 
technology, investigative techniques, and prosecutorial 
experience that we have in the U.S. and that we have readily 
shared through organizations like Operation Underground 
Railroad, there may never have been a Victor Rax coming to Utah 
as they could have handled his case in his country of origin. 
The Rax case opened my eyes to the violations being perpetrated 
upon some of our most vulnerable. We have significantly 
increased in our State the number of investigations and 
prosecutions of trafficking cases during my administration. 
Just within the past 2 weeks, I participated with my strike 
force team on an undercover sting and raid of a massage parlor 
we believed to be a front for sex trafficking. It was a site 
that I had personally surveilled over a period of a year with 
my men.
    In Utah we have worked closely with legislators to enhance 
penalties for trafficking and to treat victims as victims 
rather than perpetrators. During the Rax case, I heard of an 
organization based in Utah called Operation Underground 
Railroad, which was just starting up. When I spoke to the 
founder, Tim Ballard, I told him I was extremely impressed by 
three things: One, the emphasis that OUR, the acronym, puts 
into providing resources, counseling, training, and stability 
to victims that they liberate from trafficking, and the 
involvement of groups and people like Elizabeth Smart in their 
organization.
    Two, I was impressed by the focus on training of local law 
enforcement partners in the various countries where they do 
operations to give or enhance the skills, techniques, and tools 
that they need to replicate the operations again and again; and 
some of the most gratifying moments have been hearing from our 
law enforcement partners after we have done missions in their 
countries, telling us that they have had success on their own 
using the techniques they learned from OUR.
    Number three, I told Mr. Ballard the emphasis on letting 
local partners take credit for their wins and building up 
credibility with their own people and government were quite 
impressive. And over the past year, dealing with them, having 
participated as a partner and member of OUR, I would now add 
two more quick points. The talent and dedication of Mr. 
Ballard's team, former successful CIA, HSI, Navy SEAL, Special 
Forces, and law enforcement personnel, and lastly the 
effectiveness of the stings they set up.
    As you alluded to, Mr. Chair, how do I know how effective 
the stings are, because I have seen them up close and 
personally, as you might be watching them on the sides here. 
And if it comes back to looping, I will perhaps editorialize a 
bit.
    In October 2014, I joined an undercover sting operation in 
Cartagena, Colombia, organized by Operation Underground 
Railroad. There were two other simultaneous jumps in Armenia 
and Metagene, other cities in Colombia, and because of the 
success that this organization had, and here you are actually 
seeing on the side the table at which the transaction occurred 
where we were making the offer to buy and have a sex party. I 
believe at this very moment our law enforcement partners, CTI, 
or the Columbian equivalent of the FBI are swooping in to make 
arrests. I think the timing of some of the clips is not 
sequential, but this occurred on a group of islands off the 
coast of Cartagena. We isolated the operation to minimize the 
danger to anyone else and to maximize the opportunity to cut 
off escape by the traffickers and to make sure that we could 
assure the safety of those young girls and boys that we were 
liberating.
    So we had set up on an island there the site for the party. 
The traffickers believed they were going to come and bring all 
of these young children to have a sex party with an affluent 
American businessman. Again, I was playing the role of the 
translator and bodyguard, the mean and menacing player, which I 
thought was a bit unfair. You see our law enforcement partners, 
including Coast Guard, local police, and CTI, very well 
coordinated. After months of work in excruciatingly detailed 
cooperation and coordination, we isolated the young ladies and 
the couple of young boys that were with them in one of those 
huts and transacted at the table, upon the successful 
transaction, the large amount of cash in exchange for the sex 
party. You will see law enforcement here now coming to take us 
down as we were posing as the sex participants and local law 
enforcement.
    When they finished processing the traffickers, they allowed 
us to leave to head back to the airport. It was very touching 
to be able to say good-bye to those young girls knowing that 
many of them would be heading back home to families who had 
likely prayed for their safe return for a number of years. In 
other cases the families had no idea that they were actually 
being trafficked. They had been duped into thinking they were 
participating in a modeling agency. And so this is the type of 
work that Operation Underground Railroad does, very precise 
with buy-in from the highest levels of our sister nations. It 
is something that they welcome with the credit all going to 
their local law enforcement. And I will let Mr. Ballard finish 
out explaining more about that as I have a few more things to 
address before I summarize.
    You see there, we saw up close the horror and helplessness 
in the eyes of your girls, ages 10 to 16, after the drugs that 
the traffickers had given them that very morning to take the 
edge off of what they were about to experience. And during 
those very moments now where it is being frozen around that 
table, they offered up these young girls as if they were 
desserts to be had for a minimal price. And the fear and, 
again, helplessness in their eyes was something I will never 
forget. Contrasted with the sense of liberation just a few 
minutes later and the hope that they had that they were going 
to potentially get home and be back safely with their parents.
    All I can say is thank goodness that we were the ones there 
that day instead of real sex tourist predators. Not only did we 
liberate over 120 innocent girls and boys that day, 
cumulatively with the three missions that were done 
simultaneously and reunite them with families and get them much 
needed resources to start the long road to recovery, but again 
we trained local law enforcement with investigative techniques 
and software, and they have called us numerous times to report 
on their replication of other stings where they have taken down 
other traffickers and saved even more children.
    People ask why the Utah attorney general went to Colombia. 
My reply, number one, because such a high percentage of those 
travelling abroad for sex parties are American. Some statistics 
suggest 80 percent or more of sex tourists may be American. I 
am embarrassed by that fact, that Americans provide such 
demand, and I feel a responsibility to remedy the scourge that 
my fellow countrymen have helped to create.
    Secondly, helping to stop human trafficking no matter where 
it exists is vitally important, and to be clear, no State funds 
were used. I was not going down in my official capacity as the 
attorney general of Utah. In fact, nobody knew except for our 
closest law enforcement partners.
    Three, and I think this is critical to this discussion, 
creating a firewall in countries like Colombia and the many 
other countries that OUR and other organizations like them have 
established to prevent future Victor Raxs from entering the 
shores of the United States and my State of Utah. Through the 
conference of Western Attorneys General, I and other State AGs 
have conducted bilateral training with AGs in Mexico and El 
Salvador to train and coordinate law enforcement resources; and 
I have met with the Ambassadors of Japan, Peru, the 
Philippines, and many others, including the Philippine 
Ambassador just again today to discuss further coordination and 
training. No leader with whom I have spoken from these 
countries is opposed to this even greater coordination as 
envisioned by the International Megan's Law. H.R. 515 also 
wisely provides for adding to the minimum standards for the 
principal diplomatic tool that the U.S. employs in this area, 
the Trafficking in Persons Report by our State Department, with 
its various tiers and incentives for our sister nations to 
achieve Tier 1 status.
    So in summary, let me say thanks. International Megan's Law 
just makes sense. Codifying a requirement to alert law 
enforcement authorities in destination countries will allow our 
law enforcement partners worldwide to be more vigilant when 
known American child sex offenders are entering their 
countries, sometimes for legitimate travel, but too often for 
repeat offenses of child crimes, sex parties, and sex tours. 
And it will also provide law enforcement at the Federal, State, 
and local levels here in the United States, a much better 
chance to prevent domestic crimes when convicted child sexual 
abusers from other countries enter U.S. territory.
    Fighting human trafficking is not a Republican issue or a 
Democrat issue. It is a humanitarian issue. It transcends any 
political differences or ideological divides. Its devastating 
reach grasps all walks of life and needs a united front for us 
to find success and give hope to victims and survivors 
worldwide.
    I would urge the Senate and anyone listening to this 
hearing to support passage of this law and others aimed at 
curbing and eventually ending child sex trafficking. Thank you.
    Mr. Smith. Thank you so very much, Mr. Attorney General. 
And thank you for bringing up the International Megan's Law. It 
has passed the House three times. We believe it will get its 
hearing and will be acted upon by the U.S. Senate.
    [The prepared statement of Mr. Reyes follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Megan Kanka--before I go to Mr. Ballard--the 7-
year-old girl who was brutally slain in Hamilton Township, New 
Jersey, my hometown, no one knew that, that pedophile lived 
across the street. He invited her into the house, raped her, 
and then brutally killed her. And that led to the enactment of 
Megan's Law in all 50 states and the District of Columbia and 
throughout the territories. It is a transformational effort. 
And the international part, as you know, it is all about 
noticing countries of destination of convicted pedophiles. 
There was a GAO report that found something like 4,500 
convicted pedophiles in 1 year alone according to the 
Government Accountability Office, got passports, and they are 
good for 10 years, and then they go about travelling.
    And they travel to places like Colombia, like Thailand, 
Brazil, all over the world; and they abuse children in secrecy. 
This would empower that government to deny a visa or to watch 
them very closely so they don't abuse their kids. So thank you 
for bringing that up as a preventative means of mitigating this 
horrific crime. Mr. Ballard.
    Mr. Reyes. Thank you, Mr. Chair.

   STATEMENT OF MR. TIM BALLARD, FOUNDER AND CHIEF EXECUTIVE 
            OFFICER, OPERATION UNDERGROUND RAILROAD

    Mr. Ballard. Good afternoon, Mr. Chair, and esteemed 
members of the subcommittee. Thank you very much for this 
opportunity.
    My name is Tim Ballard. I am the founder and CEO of 
Operation Underground Railroad. I served for 12 years as a 
special agent for the Department of Homeland Security, where I 
served on the Internet Crimes Against Children Task Force and 
the Sex Tourism Jump Team. I worked as an undercover operative 
infiltrating organizations at home and abroad who were in the 
business of abusing children, sexually trafficking them.
    In 2006 with the passage of the Adam Walsh Child Protection 
and Safety Act, Congress opened the doors for U.S. agents to 
better investigate these cases, especially internationally, and 
I was one of the first agents assigned to a team that would go 
out and use our undercover skills to infiltrate these 
organizations, looking for American travelers who were engaging 
in sex with children. I was proud to represent the United 
States in dealing with this horrific issue. However, I often 
felt helpless by the fact that the vast majority of the child 
victims that we would find fell outside the purview of the 
United States or for that matter any developed nation with the 
tools that could save them. Unless I could tie a U.S. traveler 
to the case, I would not be able to rescue the children, even 
the ones that we were able to identify as being victims. It is 
an issue of the sovereignty. It is outside of the jurisdiction, 
and I understood that. However, that doesn't mean that we 
couldn't be doing more.
    As an agent, I once had the opportunity to work on a 
specific case in Colombia. I did my due diligence, and as a 
team we located children who were being trafficked. And again, 
we were told that if it was not going to end in a U.S. 
courtroom, that there were no resources available and there was 
little we could do except send a reference, and sometimes that 
is just not enough. And that was discouraging, and I grew 
frustrated being told no many times, though I understood, 
clearly understood the reasons why. Because of this I decided 
to leave and create Operation Underground Railroad, which we 
did last year.
    We since went back to Colombia as a private organization, 
and as we have talked about and seen on the screens, we were 
able to pull off one of the largest rescue operations that we 
know about by setting up sting operations that consisted of 
ruse child sex parties. We were able to help the Colombians 
rescue more than 120 victims in 1 day. And to see these 
children, as young as 11 years old, to look into their eyes as 
they are tearful, scared to death, and knowing that they were 
lured out of this by various means.
    This group in Colombia had actually hired a beauty queen 
from Cartagena who could lend credibility to their ruse and 
bring these children, and they told us as young as 9 years old, 
they started recruiting them to be models when, in fact, they 
were being sold and raped for money.
    What is most interesting I think about this case in 
Colombia is that Homeland Security agents ended up arresting a 
American citizen named Dennis DeJesus. DeJesus caught wind of 
our fake sex party in Colombia and was heading down from 
Florida when U.S. agents arrested him. In the end, we got our 
American. Evidence concluded that DeJesus had produced child 
pornography and had traveled previously to Colombia in order to 
engage in sex with minors. DeJesus pled guilty to child sex 
crimes in a Federal court in Florida just a few weeks ago. This 
case proved that when engaging the problems of international 
child sex crimes, there is a good chance that a nexus to the 
United States will eventually be made.
    However, I never would have be able to initiate this 
investigation as a U.S. agent due to the fact that the U.S. 
nexus did not appear until the end of the investigation. I also 
learned that once my team initiated this investigation, along 
with Columbian authorities, the U.S. Embassy and the Homeland 
Security Investigations, Bogota office, was more than happy to 
support the case. However, without our private efforts, the 
resources or the mandate to pull it off did not exist with 
United States assets. This is a matter of frustration to many 
of my former colleagues in the U.S. Government, these U.S. 
agents. They want to do more. They need resources to do more, 
more resources to do more.
    The current approach by the U.S. Government to 
international child sex crimes could use some adjusting. More 
mechanisms need to be put into place so that the U.S. can 
better engage this problem. Oftentimes it feels like our 
policies and practices, though not our people or our Government 
agents, take a position that a foreign problem is simply not a 
U.S. problem. However, as the DeJesus case proves, when it 
comes to child sex crimes, this problem is international. And 
the fact that we are talking about child victims should cause 
us on a moral level to find ways to remove barriers that 
prevent international engagement. I have worked with many 
foreign governments, and I have never seen one that does not 
desire more U.S. involvement when it comes to these specific 
crimes against the most vulnerable souls on earth.
    Speaking of International Megan's Law, H.R. 515, here is 
another opportunity, a wonderful opportunity, to attack this 
problem from a different angle. It will help bridge a serious 
gap. As a government agent, it was always frustrating to know 
that minus a crystal ball, it would always be a serious 
challenge to predict when a child sex traveler would cross our 
borders to engage in illicit sex with children. As quoted in 
the bill itself, legitimate studies have concluded that there 
are close to 2 million children in the world currently in the 
commercial sex trade; and the bill also points out that a 
significant amount of these travelers are from the United 
States. And I for one can testify, I know these stats are true 
because I have been working in this black market for more than 
10 years.
    In a sad commentary on our society, the reason our cover 
story has worked so well and has been so easily bought by 
perpetrators is due to the fact that we are Americans. These 
guys, these perpetrators are used to catering to Americans. 
They are used to selling children to Americans. This is an 
American problem no matter where on earth the child victim 
happens to be.
    In this country we proudly work under Megan's Law as a 
means to encourage States to protect children by identifying 
and monitoring the whereabouts of child sex offenders. As a 
society we have accepted the fact that convicted sex offenders 
pose a great risk to children, and so we make their presence 
known. Of course, the question why would we not offer the same 
mechanism to our friends overseas? And I understand it has 
passed three times in the House. It is time to pass it in the 
Senate, and I hope that your colleagues in the Senate are 
listening, that they might hurry along.
    We might picture a man who has been convicted of raping 
children in a foreign country. We might imagine that this man 
is coming for a visit to our towns, to our parks, and our 
neighborhoods where our children play. Would we not want to 
know this man's past? Of course, we would. And I assure you 
that our friends in other countries want this information as 
well, especially the would-be child victims of the crimes.
    Advancing this bill is an opportunity to connect law 
enforcement agencies around the world by arming them with 
actionable intelligence that they can use to prevent child sex 
crimes from occurring. This bill talks about the Angel Watch 
Center. The Angel Watch Center will be a significant first step 
in bridging the gap between governments and nongovernment 
organizations like ours that have real experience in rescuing 
and rehabilitating victims of trafficking.
    One of the great benefits of being an NGO is that it allows 
greater freedom for anti-child crimes experts to move about the 
world, plugging quickly into any government jurisdiction and 
rapidly bringing the tools to fight child crimes into the hands 
of government officials who need them. We are readily afforded 
access to information regarding child sex rings that is useful 
to combat these rings. One of the challenges for us of course 
is, establishing and maintaining direct relationships with 
government officials who need and want our services. Through 
the Angel Watch Center, this problem will be helped. This 
center will serve as a venue where a public-private partnership 
can more easily leverage all the intelligence, ideas, tools, 
and strategies to best protect children at home and abroad.
    Speaking for my organization, we have physically rescued 
hundreds of victims in the last year alone. Advancing H.R. 515 
and creating the Angel Watch Center, I believe, could double or 
triple that number for us, and that is just for us. Add to that 
the many other NGOs and other government agencies, foreign and 
domestic, that will participate in the Angel Watch Center, and 
we will be saving more children than ever before.
    Let's not wait any longer to put this bill into law. The 
children are desperately waiting for us. I know this because I 
have seen them. Thank you very much for this opportunity.
    Mr. Smith. Mr. Ballard, thank you so very much and again 
for that sacrifice of leaving your employment to take on this 
private sector initiative that has saved, as you pointed out, 
hundreds of victims in the last year alone. That is 
extraordinary. Thank you for that leadership.
    [The prepared statement of Mr. Ballard follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Smith. Well now I will turn to Karla Jacinto, and I 
thank you for being here. Thank you.

   STATEMENT OF MS. KARLA JACINTO ROMERO, SURVIVOR OF HUMAN 
  TRAFFICKING AND ADVOCATE, COMMISSION UNITED VS. TRAFFICKING

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Jacinto. Mr. Chairman, and members of the subcommittee, 
thank you for taking the time to listen to my story. My name is 
Karla Jacinto and today I have a voice, but for more than 4 
years of my life from the age of 12, as a little girl whose 
mother had thrown her out on the streets, open to anyone 
wanting to take advantage of my vulnerabilities, I fell prey to 
a professional pimp who after 3 months of wooing and me 
treating me as a princess, propped me up on a corner and forced 
me to work the streets for his own gain. For years and years I 
was coerced, intimidated, threatened, beaten, robbed of my 
children and emotionally and sexually violated time and time 
again.
    During those years, I was forced to serve every type of 
fetish imaginable to more than 40,000 clients. Of those, many 
were foreigners visiting my city looking to have sexual 
interactions with minors like me.
    Please try to put yourself in my shoes, broken, abandoned, 
violated, hurt, denigrated, and enslaved at a time when I 
should have been playing with dolls and looking forward to a 
fun day at school.
    Today I am thankful to be able to stand before you as a 
reintegrated woman. At the age of 16, a man that had become a 
regular client was able to see beyond the short-term pleasure 
into the eyes of a broken girl. He helped me escape and I 
entered from the Fundacion Camino a Casa shelter. There I 
received the help, care, time, attention and love that I needed 
to put the broken pieces of my soul back together.
    I also met Rosi Orozco, who has helped me grow into the 
activist I am today. I am 22, and for the last 5 years, my life 
has been dedicated to raising my voice to anyone willing to 
hear that we exist, that there are thousands of little girls in 
my country being used for the pleasure of those who only live 
for their own desires, economic gain, and exertion of power.
    It is up to us, both governments and nongovernment 
organizations to work together to prevent this crime, punish 
those who commit them, to look and rescue for those who are 
already caught in the web, and to provide the care necessary 
for their healing and reintegration into a healthy society. No 
one person can do it himself or herself. We are all 
responsible. We are all affected, and we can all do something.
    Today, your people have chosen you to have a position of 
influence that can truly make a difference. And I hope that my 
story will help you make some choices that will put a stop to 
this horrible crime. Thank you.
    Mr. Smith. Karla, thank you so much for testifying and for 
the bravery to come forward and tell your story and to admonish 
all of to us do more to end this cruelty, and to help those who 
have been victimized. So your story will help.
    [The prepared statement of Ms. Jacinto follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Smith. I would note for the record that C-SPAN is here 
which means that Americans will have the opportunity to hear 
all of your testimonies. And C-SPAN, you know, is independent. 
It does not cover every hearing. And I am very grateful that 
they are here so that your words will be heard by millions of 
Americans and people around the world. So thank you.
    I would like to now introduce our final witness, Rosi 
Orozco, again a former deputy, author of landmark anti-human 
trafficking legislation in Mexico, and now the president of the 
Commission United vs. Trafficking.

 STATEMENT OF THE HONORABLE ROSI OROZCO, PRESIDENT, COMMISSION 
     UNITED VS. TRAFFICKING (FORMER MEXICAN CONGRESSWOMAN)

    Ms. Orozco. Mr. Chairman, and members of the subcommittee, 
thank you for this opportunity. Today I am here out of a 
profound sense of obligation to focus on the problem of sex 
trafficking, especially the reality of sexual tourism and child 
pornography. As you have heard, Karla was a victim of all these 
crimes at the age of 12. To establish some context, I will--I 
should explain a little bit of who I am. Thanks to the training 
I received from your Justice Department here in Washington, DC, 
2005, all my life now has been dedicated to fight human 
trafficking. In all of its forms. But especially that of sexual 
exploitation of women and, of course, minors.
    First, as a Congresswoman from 2009 to 2012 where I was the 
driving force to establish the general law to prevent, punish, 
and eradicate the offenses of trafficking in persons and to 
protect and assist the victims of these crimes. Since the law 
took effect in 2012, and with the leadership of our President 
Enrique Pena Nieto, and we have reported more than 200 
convictions. Mexico now is the leader in the prosecution of 
these crimes in all Latin America. More recently, as the 
president of the NGO Commission United vs. Trafficking, we work 
in partnership with 97 other NGOs, and we have made sure that 
we communicate a clear message to every social, political, 
business, art, and international platform.
    In Mexico, human beings are not for sale. And we will fight 
against anyone that acts against that fact. Today I am here 
representing every victim of slavery in my country. Sadly, 
Mexico is a country of origin, transient, and destination of 
human trafficking of women, men, and children, that are being 
exploited both in Mexico and the United States. It worries so 
much to all of our NGOs that there has been some intention in 
Congress in Mexico trying to knock down the law that protects 
the human rights of victims and punishes criminals. They will 
try again in September so we are working as NGOs to protect the 
good parts of our law, and reform the articles that could be 
better with some Congresspeople that are very committed against 
human trafficking.
    According to the World Tourism Organization, and the 
International Labor Organization about 3 million people 
traveling the world look for travel-related opportunities to 
participate in sexual acts with children. Sexual tourism 
affects more than 2 million children that are obligated to 
prostitute themselves or work in the pornography industry. 
Sexual tourism is the principal motor behind child sexual 
exploitation. This is a phenomenon that in recent years has 
expanded exponentially throughout the world, especially in 
Asia, and Latin America with Mexico being one of the principal 
countries affected, especially in the northern border towns and 
beach cities.
    Last year your own Homeland Security Department has 
situated Mexico as the number one distributor of child 
pornography in the world. This is largely due to the high 
demand. Studies demonstrate that most perpetrators are coming 
from the United States, England, Holland, and Germany. In a 
study done by the American Bar Association we know that 47 
bands of human traffickers were identified in Mexico, of which 
the most renowned originate in the State of Tlaxcala, and are 
very well-known for importing their victims to the United 
States.
    I urge you today to make sure that our country will 
continue working together to put a stop to the atrocity of 
human trafficking and in all its forms, all forms of human 
trafficking by refining our laws and committing to communicate 
and cooperate with each other. We can stop the criminalization 
of victims, work to push hard to strengthen the law against 
providers and consumers, ease the path for prosecution of 
cases, and provide the care that victims and their families 
needs to rebuild their lives.
    We believe that we have been working very well with the 
Ambassador Anthony Wayne, even his wife is one of the wives of 
many of the Ambassadors that works with Fundacion Camino a 
Casa. Karlita herself has met her. The Polaris Project is doing 
a great job also in a partnership with Mexico now, and you have 
a great, great Attorney General, Loretta Lynch, who is called 
in Mexico, the nightmare of the pimps. And we also have a very 
good Attorney General who will be the nightmare of the pimps 
soon. She is new in office. And also, we have great police who 
are committed against these crimes.
    In truth, my passion is to work directly with the beautiful 
girls that have suffered and been rescued from these horrific 
crimes. I have personally worked with more than 200 victims, 
shared their stories, and witnessed their struggle as they look 
to reveal their lives and heal from the worst pain that can be 
inflicted on a human being, the loss of their freedom and 
dignity. More than anything, they need all of us to be willing 
to fight for them and they deserve to be heard. Just think 
about this. Most of these girls were suffering from poverty, 
violence, lack of education, when they become targets of 
criminals that make them also to be their slaves. So when the 
heroes like the people of Operation Underground Railroad rescue 
them, as a society, we owe them very much. They didn't have 
what they deserve in our country. They deserve the food, the 
house, the security, and education. And then we see them as 
slaves. Thank you to people like the people that work in OUR, 
thank you for being heroes in other countries.
    We need to work a complete process of reintegration from 
start to finish until they become successful people that we can 
all admire, like Karla, who is with me now today. She is a 
survivor of human trafficking. She was a sex slave between the 
ages of 12 to 16. Seven years ago, Karla was saved by a client 
who saw her beauty instead of his lust. And now she is a 
worldwide activist who has spoke twice in front of Pope 
Francis, has taken and shared her story with the Duchess of 
Cornwall, has been with the ex-President Felipe Calderon, and 
with Queen Noor of Jordan at the Trust Women Conference in 
London, among many other important people.
    We believe that people like Karla, if we don't help them 
until they are successful, they could kill themselves, or 
become criminals. When she arrived to the shelter she was full 
of hate. Now she is full of love. We must work to break the 
vicious circle of lack of cooperation between authorities and 
NGOs. Our mistrust of the process that result of people failing 
to denounce the crime and failure to prosecution. Instead, we 
must create a virtuous cycle where authorities and NGOs like 
OUR work together, then provide a special and dedicated care to 
these teams until they become successful stories. We need to 
work together with survivors until they become people of 
admired by society. Only then will more people denounce the 
crime of human trafficking; only then will more criminals be 
prosecuted; only then will more victims be freed; and only then 
less and less people will look for slaves to satisfy their 
basic instincts.
    Please, do not name the clients johns if they were like the 
clients that Karlita had. They are criminals. They are not 
johns like they were a nobody. We should treat them like 
criminals. Thank you so much for hearing us.
    Mr. Smith. Ms. Orozco, thank you very much for your 
leadership, both in the Congress as well as now as head of an 
NGO. Thank you so much. You inspire us and, obviously, you have 
saved many, many lives.
    [The prepared statement of Ms. Orozco follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Mr. Smith. I would like to ask a few questions. We do have 
three votes. If it is okay with you, and I know some of you may 
have to leave, we will take a short recess and come back and 
ask some additional questions. But just to begin the 
questioning, and I yield to my two distinguished colleagues, 
Attorney General Reyes, you talked about the 120 kids and let 
me just say, undercover work whether it be in Utah, your State 
or my State, New Jersey, or any State in the Union is always 
dangerous work. But I would be suspect of undercover work in a 
foreign country where the reliability of the law enforcement 
assets may be questionable. Mr. Ballard may want to speak to 
this as well--how do you vet the law enforcement people that 
you make a part of your team given the distance, or even in 
Utah. There might be somebody who is complicit in the 
trafficking who would let the bad guys know you are coming, or 
put your very life at risk.
    The 120 kids, what has become of them? The whole idea of 
recidivism is always a deep concern for all of us. All of you 
might want to speak to that. How do you keep them out of harm's 
way? I have found, because I have been in shelters all over the 
world, that there needs to be a significant length of time, 
months doesn't cut it. It needs to be years to really break 
that cycle and turn, as Ms. Orozco talked about, the hate into 
love and self-acceptance. Because the victims, unfortunately, 
blame themselves far too often, and they are victims. So if you 
could speak to those two issues at the outset and Ms. Bass, I 
could yield to you now, and then to get the questions in 
because I know Ms. Bass can't return, and then Ms. Jackson Lee.
    Ms. Bass. Well, I want to acknowledge my good colleague who 
is also from your State, Mia Love, Congresswoman Mia Love, who 
just came. So a couple of things. I also was interested in some 
of the same questions that the Congressman asked. I was very 
interested in what happened to the girls, and also what 
happened to the men. Because, as I watched the tape as it was 
going, the first thing that came to my mind is that do they get 
released, and then do they go back after the girls? You know 
what I mean? Do they capture the girls?
    And then I would like to ask Ms. Jacinto, if you could 
please explain when you were rescued, what was it that allowed 
you to not go back? And then I just want to make a brief 
statement for the record.
    Mr. Reyes. Mr. Chair, are you ready----
    Mr. Smith. If I could, just because of time, we are joined 
by Mia Love, who is obviously from your State, and a very 
dedicated Member of the Congress, and caring about these 
issues, and then going to my Democrat colleague, Ms. Jackson 
Lee.
    Mrs. Love. I first of all just wanted to say thank you for 
the invite and letting me know that our attorney general and 
Mr. Ballard from Operation Underground Railroad is here. The 
work that they do is so incredibly important. It is something 
that is very important in the State of Utah, but also for our 
Nation and around the world.
    This is not based on fiscal issues. This is not based on 
party issues. This is what we have to do, and that is you are 
protecting life, liberty, and the pursuit of happiness. This is 
a moral issue, and I wanted to say thank you so much for making 
this such an important part of what you do.
    I have three children, two girls, one boy, and it makes me 
feel better as a parent knowing that there are some good people 
out there doing this work and making sure that the predators 
know that we will not rest. We will be diligent and we are 
watching them and we are putting them out of business. So from 
the bottom of my heart as a parent, as an American who cares 
about the children all around this world, thank you for the 
work that you do, and thank you for this committee for taking 
this issue so seriously.
    Mr. Reyes. Mr. Chair, can we say we are proud of our entire 
Federal delegation especially here today. Thank you, 
Congresswoman Love. She is not telling you everything. She has 
actually been helpful in a number of ways, including an 
operation or several operations that have occurred in Haiti, 
given her Haitian heritage and we appreciate her support and 
all of your support, so I just wanted to acknowledge her and 
everything she has done to support Operation Underground 
Railroad.
    Mr. Smith. Thank you. Ms. Jackson Lee.
    Ms. Jackson Lee. Well, first of all, let me thank you for 
the courtesies extended by both the chairman and the ranking 
member. Thank you so very much. Quickly to the witnesses, let 
me thank you for your testimony. I just briefly will indicate 
and ask a question, and then hopefully it will go on the 
record. I am the ranking member on the Crime Subcommittee. We 
want to make sure that we have some collaboration with the 
Foreign Affairs Committee for filling in the holes. So my 
question would be, there seems to be a gap as to dealing with 
those who are not connected to the United States. We deal with 
sex trafficking as the buyer, the victim, and maybe in the 
State. And so my question would be general, and of course to 
our Congressperson, how do we deal internationally? How do you 
make sure if there is an international issue in New Jersey that 
you either connect Federally or that your laws allow you to 
reach to be able to ensure that their dastardly works are not 
impacting New Jerseyites, people from Utah, and fill in that 
gap that we don't miss those who are trying to do devastating 
things to children.
    Lastly, I always mention Boko Haram, way, way, far away, 
but, you know the dastardly things they have done by kidnapping 
girls and we believe it has an international effect. So thank 
you so very much for your service.
    Mr. Reyes. Thank you. Are you going to recess now, Mr. 
Chairman?
    Mr. Smith. No, we do have a little extra time so if you 
will begin answering the questions----
    Mr. Reyes. Let me quickly try to address one or some of the 
questions that were posed perhaps at a surface level and then I 
will allow Mr. Ballard who is our operations director----
    Ms. Bass. Excuse me, and also Ms. Jacinto, because I know I 
won't be able to come back, so I just really wanted to hear 
from her.
    Mr. Reyes. You know what, I am happy to defer too. Let's 
let Ms. Jacinto address those things. And then we can come 
back.
    Ms. Bass. My question was whether she could recall one 
thing that really allowed her to be able to stay away, and not 
get pulled back.
    Ms. Jacinto. My daughter. Because she was taken away from 
me when she was born. That is when I really started fighting. 
When she was born, when she was 1 month old she was taken away 
from me, and for 1 full year.
    Ms. Bass. Foster care?
    Ms. Jacinto. No, no, no, the pimp, or the crime 
organization took her from me, extortion, so they could 
continue.
    When they took her from me, that is what gave me the 
strength to pull through, and one of the regular clients 
recognized my situation and helped me escape and recuperate my 
daughter. When they gave her back to me she had burns in her 
cheeks. Every day while I was in the shelter, I wanted to learn 
how to be a good mother to my daughter so that our children, 
because most of the girls that are there, we have children, do 
not fall prey to this crime.
    I would never ever, ever want to go back to that place 
because in that situation you become an object, a sexual 
object. You have no other identity. And that is what makes me 
stand here today and raise my voice to say ``enough.''
    Mr. Smith. Thank you. We have three votes, like I said, so 
in about 15 minutes or so, we will resume the sitting of the 
subcommittee. Thank you very much, and we stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting, and I 
do want to apologize again for the delay to our distinguished 
witnesses as well as to the audience. We are joined by Ann 
Wagner, a distinguished Member of the House of Representatives 
from Missouri, who wrote a major bill that has passed the 
House, is likely to be back in the House after being through 
the Senate, that criminalizes advertising. And I would like to 
yield to my good friend and colleague for any comments about 
her bill which I think will make a huge difference, and any 
questions that she might have of our panel.
    Mrs. Wagner. Well, I thank you, Mr. Chairman, and I thank 
you for a lifetime of leadership on this issue for all of those 
giving a voice to the most vulnerable and those who are 
oftentimes voiceless. I served 4 years as a United States 
Ambassador in Western Europe, and was very familiar with human 
trafficking vis-a-vis the international aspect of things. But I 
will tell you, it wasn't until I came home to my own country in 
2009, decided to run for office myself, put my own name on the 
yard sign, dug into a few things, and realized how prevalent 
this scourge, this modern-day slavery is, and the prevalence 
here domestically in our own country.
    This is, domestically, a $9.5 billion business. There are 
upwards, according to the Justice Department, of 300,000, 
mostly young girls, at risk for this. And we as a Congress, 
other than reauthorizing the fantastic work that Chairman Smith 
has done, really had not gotten up to date on some of the new 
technologies, and the new things going on over the last decade, 
so I brought this up. I am on the Financial Services Committee. 
I do a lot in defense, and veterans issues, but this, this, 
fighting this scourge of human trafficking and sex slavery is a 
passion of mine. And so we went forward, introduced several 
pieces of legislation last Congress. I can tell you in January, 
along with Chairman Smith's bill and many others, we passed 12 
pieces of legislation for human trafficking in January out of 
the House of Representatives. The Senate has taken a number of 
them up. They worked things out and four of those will be 
coming back to us next week which we were very excited about; 
things that will bolster law enforcement, and prosecutors, and 
give you, sir----
    Mr. Reyes. Tools that we need.
    Mrs. Wagner [continuing]. The tools that you need and that 
you have been asking for. You know, I can't tell you enough, 
truly, our attorney general of Utah, General Reyes, the kind of 
work that you have been doing to fight this on a day-in-and-
day-out basis, but we are going to give you some of the tools, 
the resources, and help those victims in terms of safehouses, 
and education, and awareness.
    My particular piece of legislation is called the SAVE Act, 
and it goes on, and in the last 12 years or so, obviously, the 
Internet has just blown up and skyrocketed. And there are these 
online predators and advertisers on outlets like backpage.com, 
and many others that make it--I hate to say it but it is the 
truth--make it as easy to order up a young 14-year-old girl to 
their hotel room as it is a pepperoni pizza. It is deplorable.
    So this does not go after the Communications Decency Act. 
It is not going after any kind of freedom of speech issue. This 
goes into the criminal code. And in the criminal code, section 
1591, for human trafficking there is a litany of words that 
constitute human trafficking. It is things like transporting, 
harboring, coercing, and on, and on, and on. And all we did was 
simply add advertising. And I don't care whether it is a 
billboard or a flier, or something you see in the back of a 
magazine or one of these online predators that are making, let 
me tell you, $4 million to $5 million a month off of selling 
our women and children, and young boys too.
    So I recognize the work that many of you are doing from an 
international basis and I support that wholeheartedly. We have 
a number of great pieces of legislation like the International 
Megan's Law and other things that are so very important to our 
world society as we fight this scourge.
    But I do want to always remind folks that this is hiding in 
plain sight in our own backyards, in our own cul-de-sacs, in 
our own faith communities, in every school district. And we 
have to not just do things legislatively. We have to lift 
education and awareness. I met with a group of superintendents 
last week when I was back in the district, and I said, you guys 
are fantastic. You do programs about bullying, about heroin, 
about boundaries, and maybe sexual assault, but have we ever 
discussed sex trafficking? How we ever discussed how these 
predators go online and what they are looking for. Maybe that 
nanny job isn't a real nanny job. Maybe that modeling job isn't 
a modeling job. Maybe whatever it may be, there are tools that 
we need to provide our youth and, frankly, our counselors and 
others.
    So we are working with convention, and visitor's bureaus, 
with transportation outlets, with healthcare professionals, 
obviously, with our prosecutors and our law enforcement, but I 
want to take it to the next level, which is educational 
awareness in our schools.
    So I am just so thrilled that after 3 years, we are going 
to have a number of pieces of human trafficking legislation 
that have passed the Senate, are moving back to the House for 
final passage here and I do believe that the President will 
sign this legislation. It is much needed. So I applaud the work 
that all of you are doing. I am so grateful to Chairman Smith 
for always shining a bright light on this issue. And I stand 
with you both internationally and domestically. And I have to 
tell you, General Reyes, the work that you are doing, and your 
commitment to this cause is absolutely head and shoulders above 
anyone that I have seen, literally, in the States, so I thank 
you, sir.
    Mr. Reyes. Thank you so much. Thank you, Congresswoman. 
Thank you Congresswoman Wagner, and we so appreciate your fight 
to get us those tools that we need. It will be effective and we 
will use them. We won't let them go to waste combating these 
perpetrators and offenders. I know you are doing the State of 
Missouri proud and we feel that support from you. So let me 
just tell you brava. Thank you for your work.
    And Chairman Smith, if you would like, let me say again, 
reciprocally, from our vantage point, we applaud everything 
that you all do. But there has been no greater warrior in 
Congress on behalf of fighting for the rights, fighting for 
these poor innocents than you, Chairman Smith, and we really 
take our hat off to you.
    Mrs. Wagner. Hear, hear.
    Mr. Reyes. Thank you for everything that you have done, not 
on human trafficking, on so many different humanitarian issues, 
and for the time that you have allowed us to have today to 
hopefully educate just a little bit more our peers, our 
countrymen and our fellow men worldwide and women about this 
issue.
    You had a couple of questions. I am going to do my best to 
address----
    Mr. Smith. Before you go on, I do hope other attorneys 
general and their staffs get to see this on C-SPAN and perhaps 
by amplification by the media, because you set a standard, an 
example that needs to be followed. This is a winnable war. We 
all know that, and every effort that is made, every smart 
effort will lead to prevention of trafficking, protection for 
the victims, and prosecution of this nefarious trade.
    So thank you for your leadership and I would join you in 
thanking Congresswoman Wagner because she, first, as you know 
an Ambassador and working on the executive branch side, but now 
as a lawmaker is making a huge difference. This is a winnable 
war. So thank you. And we need every State to do what you are 
doing. They don't all want to go undercover and rescue precious 
children in Colombia. But they can use their tools and their 
capacity to end this egregious practice. So thank you. And I 
did ask a few questions----
    Mr. Reyes. I will get to those questions. One thought 
occurred. Congresswoman, if you want some ideas about school 
programs, training on how to avoid being victims of child 
sexual trafficking or being victims of other sex crimes, please 
come talk to me afterwards. We have some fantastic ones in Utah 
and we would love to share them with you. And also, again, 
notwithstanding the praise and the recognition that you gave, I 
don't want to accept a disproportionate amount of credit for 
what my colleagues, my other attorneys general throughout the 
United States are doing, have done before me, and will continue 
to do. There are many great leaders on the Republican side, the 
Democrat side throughout the great States of our Nation who 
have taken a lead on combating human trafficking. And so again, 
on behalf of all of them, our national attorneys general, they 
are the frontline in many instances in this fight, and I want 
to pay respect and credit, and give credit to all of them.
    To your questions, though. You asked what happens to 
survivors. And let me break that down domestically and 
internationally. Domestically, from our office in the State of 
Utah, we work with our Division of Child and Family Services, 
we work with nonprofits like the Elizabeth Smart Foundation, 
because in spite of the fact the liberating element of these 
operations gets the lion's share of the media attention, and it 
is kind of the exciting parts, the stuff you see on the news, 
we all know who work in this area that the true heavy lifting 
comes after the fact when these victims become survivors and 
then need the resources educationally, training, jobs, 
counseling, treatment, physical and psychological support and 
it is going to take in some cases a lifetime to help them 
overcome the atrocities that they have just endured. And so 
organizations like the Elizabeth Smart Foundation, 
domestically, safehouses that we work with are part of the 
comprehensive approach that we have taken to address what 
happens to these survivors now that they have been liberated.
    Internationally, each country is different. Each country 
has different resources. Each country has a different capacity 
to provide resources, but one of the things that I admire most 
about Operation Underground Railroad, is that they will refuse 
to work with a country, or they will even forestall operations 
until that country gives its absolute commitment to give every 
resource available that they do have, to helping the victims 
once they are liberated. And in the case of Colombia, we worked 
with a humanitarian organization called Renacer, the rebirth, 
along with the Colombian Federal and state resources. So their 
equivalent to child family services.
    You know, we need to put so much--you mentioned, 
Congresswoman, safehouses. The reason why only 1 out of every 
10 leave the life alive is that there is no safety valve for 
them. They want to leave. They want to get away and so often 
there is no place for them to escape and so these safety houses 
are another way that we can help encourage them to leave and 
give them the protection of the State and Federal Government 
resources.
    The second question, really quickly, that I want to touch 
on, you asked, Mr. Chair, how do we vet our Government 
partners? And to be candid with you, during the entire 
operation that I was on in Colombia, I really was more worried 
about potential false friends in the government maybe turning 
us over, or turning us into a cartel than I was about the 
traffickers. You know, neutralized them pretty quickly and they 
weren't an extreme physical threat. I will say this: OUR vets 
through a combination of their own international contacts, 
recognizing that many of them used to be former CIA operatives 
and members, and have established trusted relationships over 
decades along with our Federal Government agencies like HSI who 
help us vet and give us a measure of comfort with the actual 
agencies that we work with hand in hand to take down these 
criminals abroad.
    So the reality has been testified to earlier, is that there 
are agencies that aren't as credible, and we do have to worry 
about them, and we are very careful. And there still is an 
element of risk. And no matter how much vetting and due 
diligence that you do, but that is a risk we are ready to 
accept when it comes to saving these little ones and bringing 
them back to their families. I will let others address the 
questions too.
    Ms. Jacinto. Congresswoman Wagner, I would like to commend 
the work that you are doing on behalf of me and the girls that 
I now know are in the shelters. I know a very good friend of 
mine called Anita, she is in the book that Rosi provided for 
you, who was sold in advertisements in the newspaper. And it is 
exactly because of Anita's testimony in our Congress that 
Mexico has already adopted a law against this type of 
advertising. So thank you for working on that. I would also 
like to thank Tim and OUR and Attorney General Reyes for the 
work they do. In our shelter in Mexico City, we have a rescued 
victim that OUR rescued. Her name is Bibi. She lives with us, 
and I work directly with her helping her with her whole 
process. So we are happy to say that there are places where the 
girls that they rescue end up being well taken care of.
    Mr. Smith. Let me just ask what the role in, particularly 
in the healing process. I have actually been in shelters in 
Russia, Peru, Bolivia, Ethiopia, Romania, Ukraine, Italy, 
Bosnia just to name a few of the countries, and I have observed 
a marked difference in terms of the positive impact on women 
and young girls when there is a faith-based component of some 
kind. Some are run exclusively--in Bolivia and Peru they are 
run by nuns. And young girls in Peru--Greg and I were in the 
ones in Ethiopia, and Piero and I were in the ones in Peru and 
some of these other Central and South American countries. And I 
was really touched by how the healing seems to go so much 
further when there is a faith-based component.
    I am wondering what you think about that. Pope Francis, 
among other distinguished clerics, has made this a high 
priority, this combating human trafficking and caring 
especially for the victims. I am wondering, you know, what your 
thoughts on that might be?
    Ms. Orozco. Well, of course, in Mexico we work with three 
shelters. The only ones that help victims of human trafficking, 
and the three of them have that component.
    Mr. Smith. Has what, faith-based?
    Ms. Orozco. Yes, faith based. And we believe that that is 
very important until they really are successful. I am so proud 
now of Karlita because, you know, they do a book of dreams, and 
we all, these 97 NGOs, we help them to succeed. We also work in 
jails with the pimps. That has been very powerful. If you can 
watch the CNN documentary that is called ``Human Merchandise,'' 
you can watch one of the pimps who is asking forgiveness to one 
of the friends of Karlita. That also is in the book, Marcella. 
All of the girls that you can see in the book are successful 
victims because all of them know now that they are special; 
that they were created to do an important mission now, and 
because of that, also these pimps, Karlita has been in jail 
with them, and it is very powerful to the restorative justice. 
And they have been able to ask forgiveness to the victims. That 
is powerful too.
    Mr. Smith. Thank you.
    Mr. Reyes. Well, let me say this, Mr. Chair, we certainly 
are welcoming to all organizations of whatever background that 
want to join the fight. But so many of our best partners in 
this effort are faith-based organizations and it does have a 
powerful impact in the healing process that I have seen. On a 
side note, I remember when I let my staff know that I was 
heading down. I have a chief civil deputy who is a two-star 
Army general, somebody that I greatly admire, a hero of mine. 
And he said to me--atypical of his usual deference to my 
position--he said, ``Boy, I wouldn't send my own troops down 
where you are going. You can't go.'' And my response to him 
was, ``General, I feel like God is on our side in this effort, 
and that He will protect us.'' And that I have counselled with 
so many of those survivors who have said that it was really God 
and faith that kept them alive throughout the process. And so, 
of course, in the healing process, I would expect that God and 
faith would play a critical role, and I am not ashamed to say 
that.
    I think that that is an important component of it. Whatever 
someone's conception of what God or faith may be, I think it is 
critical.
    Last thing, and this is, I guess, the beauty of having C-
SPAN cover this, I get texts from people saying, oh, you need 
to cover this or that that you forgot to say. In terms of the 
girls that we worked with, many of them were able to get back 
to their families. And I think that is what people were curious 
about. Did they get home to their families? In some sad cases, 
it was their families that sold them in the first place, or the 
family environment is not a stable enough one where we feel 
comfortable putting them back in that environment. And so 
again, with our Government partners, and our nonprofit 
partners, both domestically and internationally, we take a very 
careful look at making sure we put these children, of course, 
with a deference to their families first, in a situation where 
they can win because the last thing we want to do is liberate 
them and set them up for failure without the resources that 
they deserve.
    So it is true because people ask, sometimes their families, 
their direct immediate families were the ones that decided to 
profit from them, and so they may go to next of kin. However, I 
wouldn't be too judgemental. In many cases the families did not 
know that they were putting their children in harms way. In 
this very case they thought they were giving them a chance to 
make more money in 1 year in a modeling agency which is part of 
that culture, beauty pageants, than both parents could make an 
in a decade. And so then, you know, why wouldn't they want to 
help support their number of other siblings, and they 
innocently let their children go to be part of that.
    There are English exchange programs. The women that we help 
liberate in my State, the victims we found out that they 
thought they were signing up for a United States cultural 
program or an English language program, and the wily 
traffickers, the ones who are cagier, will often, with a gun to 
the heads of the victims, essentially figuratively or 
literally, have them Skype their families every month to say, 
things are going great here. We love it in America. Learning a 
lot. But in the meantime, they are put 10 to 20 in a little 
flat, again beaten, raped, drugged, abused, and forced to be 
prostitutes, and their humanity is taken away, their dignity is 
stripped away.
    So we do everything we can on the back end to give them 
chances to reintegrate and be successes like our hero here 
today. She said she admired us, but she is a real heroine to 
all of us. So again, thank you for your time. Thank you for all 
of your efforts. We hope your Senate colleagues are listening 
carefully to the testimony today.
    Mr. Smith. Thank you for your strong appeal for the 
International Megan's Law. Coming from a person with your 
experience and knowing the direct impact it will have, it is 
very, very powerful.
    Let me just--I have one final question. I yield to my 
friend Mrs. Wagner for any additional questions she might have. 
But one of the emerging phenomenons that we have seen, is that 
it is not just organized crime, but it is gangs that has 
embraced human trafficking in a very, very despicable way. We 
have had a number of busts in my own State of organized crime, 
of that too, but of the gangs. And these young girls that are 
being exploited are 14, 15, 16 years old and if you could speak 
to that as an emerging threat because this seems to be going 
from bad to worse. Gangs do bad things with drugs, they do bad 
things relative to violence of other kinds and they are now in 
the trafficking business of human persons.
    Ms. Orozco. Yeah, also we have that punishment to the 
people who are in organized crime, or gangs that will take 
these young people, like to sell drugs, or to be forced to do 
crimes, and it is happening in our country. We are fighting 
against that. And also, we are having agriculture people forced 
to labor, and we just had a new girl who also escaped from 
being forced labor in--it was like a dry cleaning.
    Ms. Jacinto. Yeah, a dry cleaning.
    Ms. Orozco. Dry cleaning, and she was even with chains in 
her body 2 years. She is devastated. It is the worst case, and 
it is happening and that is why the laws have to be reformed 
and we congratulate you because we can see in your heart that 
you have a passion to protect dignity and freedom. Thank you. 
You have the same spirit of Abraham Lincoln, and we are very 
happy to be here with you.
    Mr. Smith. Well, thank you. And thank you for your 
leadership.
    Mr. Reyes. The dynamic you described, Mr. Chair, I believe 
is an accurate one, more and more. In fact, I think the 
prevalence of those who are traffickers is less from large, 
organized criminal structures and rather either smaller gangs 
or one-off cells. The vast majority of those traffickers that 
we encounter, especially when we are doing our operations, are 
really small. And ironically, and in fact in Colombia, the 
intelligence that we received on that particular cell that we 
busted came from high-level narcotraffickers. And, you know, 
perhaps there is honor amongst thieves. They said, you can 
handle this two ways: Either we will take care of these guys 
our way, and that might be a lot of collateral damage and 
carnage or the government can do something about it. And the 
government reached out to Operation Underground Railroad and 
said, Tim, please come in right now and help us devise a way to 
go after them without endangering other citizens. And so again, 
to my point, it seems to be less and less huge cartels, and 
much more just small organizations. Because historically, the 
downside has been very small. There hasn't been that much 
disincentive in terms of the laws that have been out there or 
enforcement. Things are changing with the laws that you are 
helping us pass domestically, Congresswoman Wagner. Things are 
changing, Chairman Smith, because of the International Megan's 
Law that will hopefully eventually be the law of the land. But 
I think that was an astute observation that you brought up.
    Mr. Smith. Thank you. I would like to yield to 
Congresswoman Wagner.
    Mrs. Wagner. And I would agree with you, General, that a 
lot of this is maybe not large cartel business, but it is big 
business. And at the end of the day, it is follow the money. I 
will tell you that here domestically any given pimp generally 
traffics about six to eight women. They make $150,000 to 
$200,000 a year off of each one of those victims. And it is 
absolutely, as I have said before, deplorable. What lifts me 
up, though, and gives me great hope are people like you, 
Karlita, and survivors, and people that are willing to come 
forward and tell their stories.
    I have been to the safehomes and the shelters. I have 
worked with these young people. I have been on sting operations 
myself--probably not quite on the frontline as you were, 
General--but I have been there when we have saved two young 
women and caught two pimps at the same time.
    Mr. Reyes. Congratulations. That is wonderful.
    Mrs. Wagner. And you know, so we dig in big time. And at 
the end of the day there are things that we can do 
legislatively, obviously. But education an awareness are 
absolutely key, and I can't stress that enough. Across the 
board everywhere, whether it is our schools, whether it is in 
our hospitals, whether, as I said, it is in our convention and 
sports--St. Louis, my hometown, sadly, is in the top 20 for 
human trafficking, mainly because of its logistical location 
and its interstate access. So there are also things that I 
think that we can do. And we are putting some legislative teeth 
behind studies and bringing together research and information 
with who the most vulnerable are. Who are the ones that are 
most likely to be victimized, so that we can take care to watch 
out and over them and give folks the resources and the 
information about how to not fall prey to this kind of 
victimization in the first place.
    So again, I applaud your efforts. It is a labor of love, 
and one that I feel very, very passionately about. I have got a 
young daughter. I have nieces. I care about their future, the 
future of all of our young children and grandchildren, and I 
will fight legislatively. I will fight for education and 
awareness on this issue until the last breath in my body.
    And I thank you, General. I will absolutely get with you. 
Some of my staff is here and we are working, as I said, on some 
best practices and programs for some of the schools. And I 
think we have gotten their attention. So I applaud you and I 
thank you, and I thank you Mr. Chairman, for giving me the 
latitude and the time today to come before you.
    Mr. Smith. Thank you. As we conclude, I will just talk 
about situational awareness, one of the best practices that is 
of absolutely almost no cost except for the training, and that 
is to train airline flight attendants and as well as the pilots 
to recognize. A woman named Nancy Rivard has come up with--and 
others--has come up with Airline Ambassadors International, a 
wonderful program so that the flight attendants become 
situationally aware. They become eyes and ears during a flight. 
It ought to be done on trains and at bus stops as well. And 
then law enforcement is advised in a timely fashion, in the 
case of a plane as it lands, to be there, to ascertain whether 
or not there is a trafficking in progress. And there have been 
a number of tremendously encouraging stories where this has 
absolutely broken the cycle.
    Coming out of Haiti, American Airlines was able to break a 
cycle of little children where a pedophile ring was broken. 
Flights coming out of Russia to Chicago where every couple of 
days there would be a number of Russian girls, young girls, 
teenagers, with one guy. There is something wrong with that 
picture. Turns out it was a trafficking ring and the flight 
attendants were situationally aware enough to make sure the 
pilot called ahead. So it is something we need to get in all of 
Latin America, all of Asia, all of Europe, Africa, so that 
thousands of airline flight attendants and the pilots and crew 
will be aware of what it looks like not to be law enforcers, 
not to put the potential victims at risk or themselves, but 
again, to phone ahead so that when that plane lands, they are 
rescued and the traffickers apprehended and prosecuted.
    Mr. Reyes. Be our eyes and ears. Or theirs. And the 
trucking association has been terrific partners as well in some 
of ships and all of those together. We need everyone.
    Mr. Smith. We do.
    Ms. Jacinto. Mr. Chairman, would you mind repeating the 
person that wrote the program?
    Mr. Smith. Sure. Nancy Rivard and it is Airline Ambassadors 
International. And we actually at the Department of Homeland 
Security, have a best practices module, or training capacity 
called Blue Lightning, so that needs to be replicated 
everywhere, including our own airlines. Delta has undertaken 
this, but far too few of our own airlines, certainly in Mexico, 
and you know, all of the other airlines need to be looking at 
it as well. Anything you would like to say before we conclude?
    Mr. Reyes. No. Thank you, again. I would just concur with 
Congresswoman Wagner that education and awareness ultimately 
will be the biggest deterrent to fighting this. We can't just 
investigate and prosecute our way out of this problem. And when 
you are ready to come to Utah for an undercover sting, come on 
out. We will get you a flack jacket and we will put you to 
work, Congresswoman. Thank you. Congressman Chaffetz has been 
out with us several times.
    Mr. Smith. And he does send his best. He is at a top secret 
briefing right now, or he asked me to convey to you that he 
would be here to welcome you. Thank you so much.
    Ms. Orozco. We just want to give you our blue heart. This 
is the U.N. blue heart for human trafficking. Humans are not 
for sale. Thank you.
    Mr. Smith. Thank you. And thank you again for your bravery 
in coming forward and telling your story as well. The hearing 
is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]
                                     

                                   

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
